<html>
<title> - CHECHNYA: IMPLICATIONS FOR RUSSIA AND THE CAUCASUS</title>
<body><pre>[Senate Hearing 106-294]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 106-294

 
           CHECHNYA: IMPLICATIONS FOR RUSSIA AND THE CAUCASUS

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 4, 1999

                               __________

       Printed for the use of the Committee on Foreign Relations


                               <snowflake>


 Available via the World Wide Web: http://www.access.gpo.gov/congress/senate

                    U.S GOVERNMENT PRINTING OFFICE      
61-866 CC                   WASHINGTON : 2000 



                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
PAUL COVERDELL, Georgia              PAUL S. SARBANES, Maryland
CHUCK HAGEL, Nebraska                CHRISTOPHER J. DODD, Connecticut
GORDON H. SMITH, Oregon              JOHN F. KERRY, Massachusetts
ROD GRAMS, Minnesota                 RUSSELL D. FEINGOLD, Wisconsin
SAM BROWNBACK, Kansas                PAUL D. WELLSTONE, Minnesota
CRAIG THOMAS, Wyoming                BARBARA BOXER, California
JOHN ASHCROFT, Missouri              ROBERT G. TORRICELLI, New Jersey
BILL FRIST, Tennessee
                   Stephen E. Biegun, Staff Director
                 Edwin K. Hall, Minority Staff Director

                                  (ii)



                            C O N T E N T S

                              ----------                              
                                                                   Page

Bonner, Dr. Elena, chairman, Andrei Sakharov Foundation, 
  Brookline, MA..................................................    14
Goble, Paul, Director of Communications, Radio Free Europe/Radio 
  Liberty, Washington, DC........................................    18
    Prepared statement...........................................    21
Sestanovich, Hon. Stephen R., Ambassador at Large and Special 
  Advisor to the Secretary of State for the New Independent 
  States, Department of State....................................     3
    Prepared statement...........................................     6
        Responses to additional questions submitted for the 
          record.................................................    25

                                 (iii)



           CHECHNYA: IMPLICATIONS FOR RUSSIA AND THE CAUCASUS

                              ----------                              


                       THURSDAY, NOVEMBER 4, 1999

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:07 a.m. in 
room SD-419, Dirksen Senate Office Building, Hon. Gordon H. 
Smith presiding.
    Present: Senators Smith, Lugar and Wellstone.
    Senator Smith. Good morning, ladies and gentlemen. We will 
convene this hearing of the Foreign Relations Committee today. 
I will announce at the outset that we are going to start before 
some of my other colleagues arrive because at 11:20 we have to 
conclude this hearing because of the swearing in of Lincoln 
Chafee. All Senators are under command of the majority leader 
to be in their seats by 11:30.
    So we will begin and be joined by other colleagues who will 
have statements, but I will begin this morning by talking about 
our subject today. We will take up the very pressing question 
of why the United States should care about Russia's recent 
military campaigns against Chechnya.
    Let me first say that yesterday I had the opportunity to 
have lunch with the Russian Ambassador to the United States. He 
is a very nice man. He is a man with whom I believe we can do 
business, to whom we should listen, and I appreciated that 
opportunity.
    So our purpose this morning is not to discuss issues of 
Russian sovereignty or to take unnecessary shots at Russia, but 
to gain a better understanding of what exactly is happening in 
Chechnya and how it affects the United States' interests. It is 
a part of the world far away. Many of our citizens do not 
understand the conflict, the ethnicities, the hatreds that are 
in play there. But we want to learn.
    I am particularly concerned, though, as all people who have 
examined this conflict, by the catastrophic loss of life of 
innocent Chechen civilians in this current military campaign 
and an earlier one as well. Earlier in the year some 
radicalized elements in Chechnya led incursions into 
neighboring Dagestan and allegedly were behind the bombings of 
several apartment buildings in Moscow. In the name of rooting 
out terrorists, Russia is using force against Chechnya in an 
apparent effort to undo the military defeat it suffered there 
some 4 years ago, a defeat which left the region effectively 
autonomous from Russia.
    Whether this latest struggle over who rules Chechnya is 
solved by brute force or by negotiation, which Chechnya's 
President Maskhadov has called for, is certainly of great 
concern to the United States. The events unfolding this autumn 
in Chechnya are of interest to American policy in three 
respects. They have implications for Chechnya itself, for 
Russia, and for the Caucasus region in general.
    First and foremost, the bloodshed in and around Chechnya is 
appalling. The shelling of civilians and the tens of thousands 
of refugees who have fled Chechnya threaten to make this 
current military campaign as devastating as the Russian 
onslaught between 1994 and 1996. Over 100,000 Chechens were 
killed during that period, and I can only hope that we will not 
see history repeat itself in the current operation.
    Second, this military campaign raises a number of troubling 
questions about Russia's future. The apparent freedom with 
which the Russian military has set about occupying the northern 
one-third of Chechnya, bombing its capital city Grozny, and 
poising itself to lay siege to that city prompts a question: Is 
Russia's civilian leadership really in control?
    If President Yeltsin and Prime Minister Putin are not in 
control of this military operation, then the United States 
should be alarmed about what this means for our stability and 
our security. If they are in control, then the United States 
should hold them responsible for the brutality that has been 
unleashed.
    Moreover, this military campaign is important to understand 
the state of Russia's civil society today. Almost a decade 
since the end of the cold war, why is the campaign against the 
Chechens, a campaign that has resulted in the death of hundreds 
of innocent civilians, so popular among the Russian people, 
that is much more popular than the war in Chechnya between 1994 
and 1996? This could be taken as a sign that tolerance and 
pluralism in Russia are on the decline.
    Local leaders, like the Mayor of Moscow Yuri Luzhkov, have 
taken steps in the wake of urban bombings tied to narrow 
radical groups to discriminate against those who look like 
Chechens, or who look like Muslims. Ethnic hatred seems to be 
on the rise in Russia.
    Finally, the Russian campaign in Chechnya has implications 
for the Caucasus in general. Islamic fundamentalism obviously 
affects the stability of the region as a whole. Yet suppression 
of Islamic fundamentalist terrorists may be a very convenient 
pretext for Russia to pursue its designs in the Caucasus.
    I hope today to explore what Russia's military designs are 
in that republic, and in the republics of the former Soviet 
Union to its south. In the Caucasus, the events unfolding in 
Chechnya are important not just to areas from which refugees 
are fleeing. When Russia masses tanks, armored personnel 
carriers, and artillery in Chechnya, neighboring states 
certainly take note. The visibility of the independence and 
democratization of nations like Georgia are indeed at stake if 
Russia's leaders and military have ambitions throughout the 
Caucasus similar to those exhibited in Chechnya.
    Today we have three witnesses extraordinarily well suited 
to explore this humanitarian disaster at the hands of the 
Russian military and its broader policy implications. 
Representing the administration, Steven Sestanovich, Ambassador 
at Large and Special Advisor to the Secretary of State on the 
New Independent States, will testify in our first panel.
    On our second panel, we are honored to have Elena Bonner, a 
veritable heroine in the struggle to be free from the Soviet 
Union and to free the Russian people from repression. Dr. 
Bonner now chairs the foundation named after her late husband, 
the dissident leader Andrei Sakharov. She is a prominent voice 
on human rights in Russia and was an impassioned and eloquent 
critic of the first military campaign to quash Chechnya's 
ambition for autonomy.
    Dr. Bonner, we consider it a special pleasure to have you 
here today.
    Also on our second panel, we are pleased to have Paul 
Goble, the Communications Director at Radio Free Europe/Radio 
Liberty. In recent weeks Mr. Goble has raised the question 
about the state of Russia's democracy, given the abridgment of 
human rights in Chechnya and throughout Russia.
    Now, when Senator Biden joins us we will hear from him. But 
Ambassador Sestanovich, we are honored to have you here and we 
turn the mike to you.

 STATEMENT OF HON. STEPHEN R. SESTANOVICH, AMBASSADOR AT LARGE 
   AND SPECIAL ADVISOR TO THE SECRETARY OF STATE FOR THE NEW 
            INDEPENDENT STATES, DEPARTMENT OF STATE

    Ambassador Sestanovich. Thank you, Mr. Chairman. I 
appreciate the chance to discuss the conflict in Chechnya and 
our response to what you appropriately call a humanitarian 
disaster there. As the questions that you have posed in your 
statement indicate, this is a complex topic with a long history 
and important implications for Russia's domestic politics, for 
the stability of the region, and for Russia's standing in the 
world, including its relations with the United States.
    Since my remarks involve strong criticism of Russian 
policy, I want to emphasize at the outset that we recognize 
Russia's territorial integrity and its right to respond to 
threats to its security. The Russian Government has a 
responsibility, indeed an obligation, to protect its citizens. 
But it also has a responsibility to avoid using indiscriminate 
force against them and to take steps aimed at a peaceful 
settlement.
    Mr. Chairman, I hope it is clear that in speaking of 
threats to Russian security I am not referring to abstract or 
hypothetical threats. There are real terrorists and violent 
insurgent groups in the North Caucasus. Chechen insurgents are 
receiving help from radical groups in other countries, 
including Usama Bin Laden's network and others who have 
attacked or threatened Americans and American interests.
    The Chechen warlord Shamil Basayev led a raid on 
neighboring Dagestan, as you noted, last August that aimed to 
set up an Islamic state there. That attack and the series of 
apartment bombings that killed nearly 300 innocent people 
spurred the Russian Government to step up its fight against 
terrorism and to launch the present military campaign.
    President Clinton and Secretary Albright condemned the 
apartment bombings as acts of terrorism. The President offered 
the Russians technical assistance with their investigation and 
the FBI will send a team to Moscow shortly to follow up.
    But while we share Russia's outrage over terrorism and 
respect its right to defend itself, the manner of the Russian 
Government's response is deeply troubling. I know from your 
statement that you agree with that. Let me note three problems 
in particular.
    First, the indiscriminate use of force. The Russian 
military offensive in Chechnya that was launched on October 1 
has steadily escalated. A relentless bombing and artillery 
campaign has been carried out in nearly all parts of the 
republic. This use of indiscriminate force against innocent 
civilians is indefensible and we condemn it. We have publicly 
and privately urged Russia to exercise restraint and to open 
Chechnya's borders to allow civilians to escape the fighting.
    The 1994 to 1996 war in Chechnya left 80,000 dead, the 
overwhelming majority of them civilians. That tragedy must not 
be repeated. Like other countries, Russia has assumed 
obligations under the Geneva conventions and commitments under 
the OSCE Code of Conduct on Political-Military Aspects of 
Security. Russia's current campaign does not match these 
commitments.
    Second, a second issue that concerns us has to do with 
refugees. The conflict in Chechnya has created a growing 
humanitarian crisis that requires immediate attention. 
Neighboring Ingushetia lacks the resources to care for nearly 
200,000 displaced Chechens and Russia's efforts have also been 
inadequate.
    Americans do not stand idly by in such cases and, through 
the International Committee of the Red Cross and the U.N. High 
Commissioner for Refugees, we are providing emergency aid. We 
recently provided $4.5 million to help support UNHCR and Red 
Cross programs in the region, and the administration will 
quickly answer the Red Cross' specific appeal for funds to help 
civilians displaced by the conflict in Chechnya. In the past 
week, three air shipments of U.S. humanitarian supplies arrived 
in the North Caucasus to support these Red Cross efforts.
    As winter approaches, the international community will 
almost certainly have to do more, and I hope that we can count 
on your support for the resources to do the job. Russia too 
must devote significantly more resources to addressing this 
humanitarian crisis, which it created. We have made that point 
repeatedly to Russian officials.
    Third, let me address the question of human rights. In the 
wake of apartment bombings in Moscow and other cities, the 
Russian Interior Ministry launched what was called Operation 
Whirlwind to root out terrorists nationwide. Police have 
detained over 2,000 individuals in Moscow and deported many of 
them, evidently because the color of their skin suggests they 
might have Chechen or other Caucasus origins.
    Ethnic-based roundups of the ``usual suspects'' are wrong 
and have no place in a country that aims to provide equal 
treatment to all its citizens, as the Russian Government has 
said it wishes to do. The Russian Government is obliged to do 
so as a signatory to the International Convention on the 
Elimination of All Forms of Racial Discrimination.
    We have said repeatedly, Mr. Chairman, that there cannot be 
a purely military solution to the conflict in Chechnya. A 
durable solution requires dialog and the participation of 
regional leaders. Unfortunately, neither the Russian Government 
nor Chechen leaders have shown much interest in such a dialog, 
and the military escalation that is under way obviously makes 
it very difficult to open talks.
    In these circumstances, we believe that the OSCE may be 
able to help. During the first war in Chechnya, after all, the 
OSCE mission to Grozny brokered many rounds of negotiations and 
monitored cease-fires. On Monday, Russian Foreign Minister 
Ivanov invited an OSCE mission to visit the North Caucasus. 
This is a step in the right direction.
    Mr. Chairman, like you, we are particularly concerned that 
the violence in Chechnya could spread beyond Russia's borders 
and pose threats to the independence and security of 
Azerbaijan, Georgia, and Armenia. Deputy Secretary Talbott and 
I visited the South Caucasus last week and we made clear at 
every stop that the U.S. supports these three countries during 
this time of turmoil in the region.
    Azerbaijan and Armenia have made progress in addressing the 
Nagorno-Karabakh conflict as a way of further stabilizing the 
region. They have done so with support from us and other OSCE 
Minsk Group countries, including Russia. We need to do more.
    As for Georgia, the single largest element of our 
assistance program to that country has been to strengthen the 
Georgian Government's ability to control its own borders, 
including with Chechnya.
    The international implications of the conflict in Chechnya 
extend beyond the Caucasus region. To conduct their operations 
in Chechnya, Russian armed forces have deployed more weapons 
and military equipment in the North Caucasus than they would be 
allowed under an adapted CFE treaty. On Monday Prime Minister 
Putin pledged that this situation is only temporary and that 
all excess weapons and equipment from the so-called CFE flank 
areas will be withdrawn as soon as possible once the situation 
in Chechnya is under control. This commitment is especially 
important now since Russia, the United States, and the other 
CFE treaty member states hope to sign an adapted CFE treaty at 
the OSCE summit in Istanbul in 2 weeks.
    Mr. Chairman, let me repeat that the Russian Government has 
an obligation to protect itself and its citizens from 
terrorists and other attacks. But this obligation does not and 
cannot justify indiscriminate attacks on civilians, the closing 
of borders to prevent civilians from fleeing, or other 
violations of human rights. How Russia resolves these issues, 
how it counters the insurgency, how it treats its own people, 
will determine what kind of country it will become and what 
kind of relationship we have with it. That will be Russia's 
challenge and ours.
    Thank you, Mr. Chairman. I look forward to our discussion.
    [The prepared statement of Ambassador Sestanovich follows:]

        Prepared Statement of Ambassador Stephen R. Sestanovich

 the conflict in chechnya and its implications for u.s. relations with 
                                 russia
    Thank you, Mr. Chairman, for the chance to discuss the conflict in 
Chechnya and our response to the humanitarian tragedy that is unfolding 
there. This is a complex topic with a long history and important 
implications for Russian domestic politics, for the stability of the 
region, and for Russia's standing in the world, including its relations 
with the United States.
    Since my remarks involve strong criticism of Russian policy, I want 
to emphasize at the outset that we recognize Russia's territorial 
integrity and its right to respond to threats to its security. The 
Russian government has a responsibility, indeed an obligation, to 
protect its citizens. But it also has a responsibility to avoid using 
indiscriminate force against them--and to take steps aimed at a 
peaceful settlement.
    Mr. Chairman, I hope it is clear that in speaking of threats to 
Russian security, I am not referring to abstract or hypothetical 
threats. There are real terrorists and violent insurgent groups in the 
North Caucasus. Chechen insurgents are receiving help from radical 
groups in other countries, including Usama Bin Laden's network and 
others who have attacked or threatened Americans and American 
interests. The Chechen warlord Shamil Basayev led a raid on neighboring 
Dagestan last August that aimed to set up an Islamic state there. That 
attack and a series of apartment bombings that killed nearly 300 
innocent people spurred the Russian Government to step up its fight 
against terrorism and to launch the present military campaign.
    President Clinton and Secretary Albright condemned the apartment 
bombings as acts of terrorism. The President offered the Russians 
technical assistance with their investigation, and the FBI will send a 
team to Moscow shortly to follow up. But while we share Russia's 
outrage over terrorism and respect its right to defend itself, the 
manner of the Russian government's response is deeply troubling. Let me 
note three problems in particular:
    First, the indiscriminate use of force. The Russian military 
offensive in Chechnya that was launched on October 1 has steadily 
escalated. A relentless bombing and artillery campaign has been carried 
out in nearly all parts of the republic. This use of indiscriminate 
force against innocent civilians is indefensible, and we condemn it. We 
have publicly and privately urged Russia to exercise restraint and to 
open Chechnya's borders to allow civilians to escape the fighting. The 
1994-96 war in Chechnya left 80,000 dead, the overwhelming majority of 
them civilians. That tragedy must not be repeated.
    Like other countries, Russia has assumed obligations under the 
Geneva Conventions and commitments under the OSCE Code of Conduct on 
Politico-Military Aspects of Security. Common Article 3 of the Geneva 
Conventions states that ``in armed conflicts not of an international 
character, persons taking no part in the hostilities . . . shall be 
treated humanely.'' Article 36 of the OSCE Code of Conduct states that 
``if recourse to force cannot be avoided in performing internal 
security missions, each participating State will ensure that its use 
must be commensurate with the needs for enforcement. The armed forces 
will take due care to avoid injury to civilians or their property.'' 
Russia's current campaign does not match these commitments.
    Second, refugees. The conflict in Chechnya has created a growing 
humanitarian crisis that requires immediate attention. Neighboring 
lngushetiya lacks the resources to care for nearly 200,000 displaced 
Chechens, and Russia's efforts have also been inadequate.
    Americans do not stand idly by in such cases, and, through the 
International Committee of the Red Cross and the UN High Commissioner 
for Refugees, we are providing emergency aid. We recently provided $4.5 
million to help support UNHCR and Red Cross programs in the region, and 
the Administration will quickly answer the Red Cross's specific appeal 
for funds to help civilians displaced by the conflict in Chechnya. In 
the past week, three air shipments of U.S. humanitarian supplies 
arrived in the North Caucasus to support these Red Cross efforts. As 
winter approaches, the international community will almost certainly 
have to do more, and I hope that we can count on your support for the 
resources to do the job.
    Russia, too, must devote significantly more resources to addressing 
this humanitarian crisis, which it created. We have made that point 
repeatedly to Russian officials.
    Third, human rights. In the wake of apartment bombings in Moscow 
and other cities, the Russian Interior Ministry launched Operation 
Whirlwind to root out terrorists nationwide. Police have detained over 
2,000 individuals in Moscow and deported many of them--evidently 
because the color of their skin suggests they might have Chechen or 
other Caucasus origins. Ethnic-based roundups of ``the usual suspects'' 
are wrong and have no place in a country that aims to provide equal 
treatment to all its citizens, as the Russian government has said it 
wishes to do. The Russian Government is obliged to do so as a signatory 
to the International Convention on the Elimination of All Forms of 
Racial Discrimination.
    We have said repeatedly that there cannot be a purely military 
solution to the conflict in Chechnya. A durable settlement requires 
dialogue and the participation of regional leaders. Unfortunately, 
neither the Russian government nor Chechen leaders have shown much 
interest in such a dialogue, and the military escalation that is 
underway obviously makes it very difficult to open talks. In these 
circumstances, we believe the OSCE may be able to help. During the 
first war in Chechnya, after all, the OSCE mission to Grozny brokered 
many rounds of negotiations and monitored cease-fires. On Monday, 
Russian Foreign Minister lvanov invited an OSCE mission to visit the 
North Caucasus. This is a step in the right direction.
    Mr. Chairman, we are particularly concerned that the violence in 
Chechnya could spread beyond Russia's borders and pose threats to the 
independence and security of Azerbaijan, Georgia and Armenia. Deputy 
Secretary Talbott and I visited the South Caucasus last week, and we 
made clear at every stop that the U.S. supports these three countries 
during this time of turmoil in the region. Azerbaijan and Armenia have 
made progress in addressing the Nagorno-Karabakh conflict with support 
from us and the other OSCE Minsk Group countries, including Russia. We 
need to do more. As for Georgia, the single largest element of our 
assistance program has been to strengthen the Georgian government's 
ability to control its borders, including with Chechnya.
    The international implications of the conflict in Chechnya extend 
beyond the Caucasus region. To conduct their operations in Chechnya, 
Russian armed forces have deployed more weapons and military equipment 
in the North Caucasus region than they would be allowed under an 
adapted CFE Treaty. On Monday, Prime Minister Putin pledged that this 
situation is only temporary, and that all excess weapons and equipment 
from the so-called CFE ``flank'' area will be withdrawn as soon as 
possible, once the situation in Chechnya is under control. This 
commitment is especially important now, since Russia, the United States 
and the other CFE Treaty member states hope to sign an adapted CFE 
Treaty at the OSCE Summit in Istanbul in two weeks.
    Mr. Chairman, let me repeat that the Russian government has an 
obligation to protect itself and its citizens from terrorist and other 
attacks. But this obligation does not and cannot justify indiscriminate 
attacks on civilians, the blocking of borders to prevent civilians from 
fleeing or other violations of human rights. How Russia resolves these 
issues--how it counters this insurgency and how it treats its own 
people--will determine what kind of country it will become and what 
kind of relationship we have with it. That will be Russia's challenge 
and ours.

    Senator Smith. Steve, do you expect that Russia will occupy 
Grozny or do you think it will just surround it and strangle 
it, bomb it? What do you think the intention is of this 
military operation?
    Ambassador Sestanovich. Senator, you may have seen the 
statement by Defense Minister Sergeyev on this question 
yesterday, which did not answer your question entirely, but did 
say that they did not intend to storm Grozny. He said at the 
same time they intend to be in Chechnya forever and to retake 
the entire province.
    I would guess that as a matter of military tactics they are 
still resolving this planning question. The fact that they have 
not--that the defense minister would indicate that they are not 
going to storm the city may mean that they have heeded some of 
the criticisms that they have heard even internally about the 
wisdom of doing that and repeating the calamitous invasion of 
the city that took place in the previous war. But this is 
conjecture.
    If they wait outside Grozny they could try to lay siege to 
it, and some Russian officials have suggested to us that this 
is an alternative that they may be looking at.
    Senator Smith. I think it is clear from all I have seen and 
read that the Russian people do support this action, whereas 
they did not support as much what happened between 1994 and 
1996. I wonder, what is that telling us? What can we learn from 
that?
    Ambassador Sestanovich. Well, I think the first thing it 
tells you is something that is political commonplace: When a 
government can define a problem as one of a terrorist threat to 
the country or as a threat of a violent insurgency that may 
lead to the breakup of the country, political support from the 
population is not hard to generate. Threats of that kind 
typically generate strong political support, and it is clear 
that the Russian Government has been able to define this 
problem in those terms.
    It is also clear, I think, that they have tried to deal 
with some of the problems that led to the unpopularity of the 
war last time around. In particular, they have acknowledged 
that they are trying to keep casualties, on their side at 
least, to a minimum. That has neutralized one of the sources of 
criticism, although I do not think we can be sure what the true 
level of casualties has been.
    This leads me to indicate and to suggest one of the other 
ways in which the government has been able to maintain a higher 
degree of popular support for its actions than it did last 
time. That is the state of the media. There has been less media 
openness in this case than there was last time. This has not 
been a television war that the Russians have watched in the 
evening.
    Senator Smith. That is by directive of the government?
    Ambassador Sestanovich. The government has kept TV coverage 
down by keeping television crews out of Chechnya on what they 
say are security grounds.
    Senator Smith. Do the Russian people generally, have they 
seen pictures of the square, the market square that was bombed 
and the 100 people dead?
    Ambassador Sestanovich. I am not sure whether that picture 
has been on Russian television. There is an awareness of 
allegations made in the West about events of this kind. The 
Russian Government has been routinely dismissing such 
allegations as what they call bandit propaganda.
    Let me add one other point about this, Senator, if I might, 
because you raise an understandable question about whether 
there has been a change in the state of Russian democracy or 
Russian civil society in the interim here. We are at an early 
stage of this war and public attitudes may yet evolve and come 
closer to what they were in 1994 and 1996. That is particularly 
likely if the Russian army undertakes the kinds of actions that 
you were asking about a moment ago, that is trying to seize 
cities through street to street operations. If that is the 
case, then much higher levels of casualties will be 
unavoidable.
    With any degree of greater openness, I think there will 
also be more opportunities for criticism by Russian political 
leaders. You may have seen that in Izvestia yesterday the 
handling and treatment of refugees was denounced as 
incompetent. Some Russian political figures have focused on 
individual elements of the policy as wrong-headed, 
counterproductive, contrary to Russia's commitments.
    That has not yet produced a full-blown critique of the 
policy and we may not see that. But there is--I think there is 
every likelihood that with greater information and with the 
evolution of this war--going to be, as there is in any system 
where you have got political candidates holding the policies of 
the government up to public scrutiny, there is going to have to 
be some debate on this subject.
    Senator Smith. Steve, I wonder if President Clinton--I do 
not know that you can speak for him here, but this issue, this 
conflict, in the United States really has not resonated yet, as 
did the action of Mr. Milosevic against the people of Albania, 
the Kosovar Albanians. That resonated to some degree, but at 
least in this instance I recall President Clinton comparing 
Russia's actions there as no different than Abraham Lincoln's 
efforts to keep the southern States in the Union.
    I wonder if he regrets that comparison or if he has changed 
his mind on that, or if that statement has caused the American 
people to just sort of shrug it off and say, well, you know, 
this really is internal affairs. Are there some differences 
there that he would pick a different analogy now?
    Ambassador Sestanovich. Senator, you have asked two 
questions. Let me address them in turn. Why has there been less 
attention to this humanitarian crisis than there may have been 
last time? Certainly not because we have failed to speak up on 
this subject. We have tried to address this from the get-go to 
make very clear what our view of this matter is and what we 
consider to be international obligations under which Russia is 
obliged to conduct a war against terrorism or violent 
insurgencies. We have used strong language in those statements.
    I certainly applaud your effort to get greater attention 
for this, because I think that will begin to attract the 
attention of the media. We have also been coordinating closely 
with other governments, trying to make sure that the 
international relief efforts here are adequate to the problem. 
And we have been trying to make clear at all levels, including 
in meetings that President Clinton himself has conducted with 
Russian leaders, what our views are.
    Now, you asked about President Clinton's comparison of this 
problem to the American Civil War. It is true that President 
Clinton used that comparison as a way of making a point about 
our policy, which is still our policy, and that is that we 
respect the territorial integrity of the Russian Federation.
    In that statement, which I looked at again recently, he 
went on to say we, the United States, believed there is not a 
military solution and believed that there had to be a political 
settlement, and we still believe that. He called for a 
political settlement as the only way of creating permanent 
stability in the region and respecting the rights of people in 
the region and of neighboring states. That is still our policy.
    Senator Smith. Do you know whether or not the Russian 
Government, though, has seized upon that comparison in an undue 
fashion, so that that still is the currency of their perception 
of American policy? I wonder. In this country this conflict 
barely rates a mention. I mean, 100,000 people were killed, 
Chechens were killed, between 1994 and 1996. That is not 
Yugoslavia. That is something much larger, much more difficult 
to understand.
    Ambassador Sestanovich. Senator, I think there is no doubt 
on the part of the Russian Government as to where we stand and 
that we are going to continue to speak out on this conflict and 
state our views as to what Russia's international obligations 
are, both of a humanitarian, political, security nature.
    I might add that, from a visit to Moscow last week, that 
there does seem to be one place where our statements are heard 
and taken rather seriously, indeed criticized and countered, 
and that is Russia. You and I may express surprise at how thin 
the media coverage has been of this issue and how little 
Western disapproval seems to figure into Russian policy. In 
Russia one actually hears something rather different--a lot of 
pushing back at what they regard as unfair criticism, double 
standards.
    They are hearing us. I think they are under no illusion 
about what we think.
    Senator Smith. I am glad to hear that. I do think, whether 
they see the Civil War analogy as apt, I do think that 
President Clinton would have trouble making the case of 
American interests in the area now if Americans remember his 
comments. I mean, nothing is more ``apple pie'' in America than 
the Union victory of Abraham Lincoln that preserved this 
country, and I think there are, obviously, some very real 
differences in the two circumstances.
    But I think one of my--as you know, myself, Senator 
Brownback, and others have tried to bring attention to this 
whole region as America having an interest in it. We call it 
the Silk Road strategy. If this area of the world is ever going 
to develop, the rest of the world needs to take an interest in 
it. Yet, if I were living in Moldova or Georgia I guess I would 
wonder, based upon our rhetorical efforts as to Chechnya, 
really how serious the United States was about doing business 
there, fostering democracy there, if in any way we are 
facilitating the carnage that is going on there.
    I wonder if you can tell me what the Georgians and the 
Moldovans are feeling, the Azeris and the Armenians? How are 
they viewing this conflict and America's reaction to it? Then I 
want to ask you about the flank agreement because that will 
lead to a different discussion.
    Ambassador Sestanovich. Sure. Senator, I completely agree 
with you about, from what you have just said and from your 
opening statement, about the nature of American interests in 
this region and in this conflict. This conflict raises 
questions about regional stability and there is an American 
interest there. It raises questions about the future of Russia 
and there is an American interest there. It raises questions 
about the credibility of Russian international commitments and 
that is an obvious interest of ours. It raises obvious 
humanitarian concerns.
    So I think there is no difficulty in establishing a 
consensus about the important interests that are at stake here 
for us and explaining that publicly and developing an 
international consensus on it.
    You asked about the attitudes of other states. I can say a 
little bit about that because I actually visited all four of 
the countries you asked about in the past couple of weeks, and 
some of them twice in that period. There is, as you can 
imagine, an acute concern on their part. Although the South 
Caucasus is separated from the North Caucasus by some rather 
imposing mountains, that does not create as much comfort as 
these countries need to be sure of their independence over the 
long term.
    I think they understand very well our concern and see our 
policies in action trying to increase their confidence about 
their independence and security. I mentioned as one example the 
efforts that we have made to help the Georgian Government with 
border security. I mentioned that that is the single biggest 
assistance program we have provided.
    We have also been insistent in the negotiation of the CFE 
treaty that the concerns of small countries on the periphery of 
Russia in the flank area be addressed. These are not interests 
that we consider as peripheral to the CFE treaty, but as 
central.
    In both Azerbaijan and Georgia, which are countries that 
border Russia, and Georgia, as you know, borders Chechnya and 
Azerbaijan borders Dagestan, there is a concern as well about 
the fact that their countries can in fact be used by 
organizations supporting terrorist activities inside the 
Russian Federation, and they have made a substantial effort to 
address that problem.
    They understand that their interests are in no way served 
by becoming transit routes for terrorism. That is an area where 
we have further offered to provide assistance that may be 
useful to them in increasing their capacity to control those 
flows.
    Senator Smith. Let me welcome my colleagues Senator 
Wellstone and Senator Lugar who are here. As I turn the mike to 
Senator Wellstone, I would like to make one comment about the 
CFE treaty. You might realize I am one of the few Republicans 
who voted for the test ban treaty, and many of my colleagues 
point out to me that these arms control agreements are often--
well, they are of no more value than the signatory nations and 
are violated routinely when one of the signatories does not 
feel like they are of interest, and that we should ergo never 
put arms control ahead of arms.
    I do not think--there is no way you can read the CFE treaty 
and say that Russia is in compliance with that. So I am kind of 
twisting in the wind here, if you will, based on this. I wonder 
if the CFE treaty, if you expect it to be complied with, or is 
this just an international agreement to be discarded as 
inconvenient?
    Ambassador Sestanovich. Mr. Chairman, I would answer your 
question in two ways. First of all, as Prime Minister Putin's 
own statement this week indicated, the Russians are above and 
acknowledge that they are above the limits that would be 
allowed for them under an adapted CFE treaty. We pushed them to 
acknowledge this publicly, to provide greater transparency 
about the levels that they have there in the region, as 
required under the treaty.
    You are absolutely right that a CFE treaty cannot be a 
viable instrument for increasing the security of all states 
unless Russian equipment levels come to match the limits that 
they are allowed under the treaty.
    Second, let me address the interests that other states have 
in this region, in this treaty, because this is not a bilateral 
treaty. It is negotiated among 30 countries. If this treaty is 
to be, as I said, a serious instrument for increasing the 
security of all states, it has got to serve the interests of 
Georgia, of Moldova, as you noted.
    These are countries that are now involved in negotiating 
the final terms of this treaty with the Russians. If those 
negotiations are a success, then the treaty will be a success. 
If it is not, then it will not serve the purposes that we all 
agree it needs to.
    Senator Smith. Thank you.
    I would note to my colleagues that we are supposed to be in 
our seats on the floor of the Senate at 11:30, so we have 
another panel. I welcome you. I am grateful you are here. It is 
a very important issue.
    Senator Wellstone, we will turn to you.
    Senator Wellstone. Well, thank you, Mr. Chairman. I think 
that what I might do is thank Ambassador Sestanovich for being 
here. I want to hear Elena Bonner. I came here to honor her 
work. So let me just in 1 minute or less make a comment, which, 
as long as we are talking about arms control regime, I think 
the whole question of ABM and our anti-missile defense proposal 
and where this all goes is to my mind a critically, critically 
important question.
    I think Ambassador Sestanovich said this, so I do not know 
that I need to put a question to him. I am of course 
sympathetic to people in Russia for the terror that has been 
unleashed against them and the anguish that they feel. On the 
other hand--and I look forward to hearing from Elena Bonner--
much as I have a hard time, I do not believe that justifies the 
just indiscriminate killing of innocent people.
    I think there is an awful lot at play politically in 
Russia. I mean, I really want to know the why of this. You 
know, in whose self-interest is this war? I think perhaps Elena 
Bonner can do a good job of informing us of that.
    I thank you for your work. I have a number of questions, 
but I have to leave even earlier. So I will not--as you can 
tell, I keep talking because I want to put the questions to 
you, but I think I had better finish.
    Senator Smith. Senator Lugar.
    Senator Lugar. Mr. Chairman, I am going to have to go to 
another meeting also. But let me try to incorporate what 
Senator Wellstone has said, because the testimony that we will 
hear from Elena Bonner and Mr. Goble is very important in 
establishing, in their judgment, that there was terrorism in 
the incidents in Moscow.
    Many of us have visited with Russians for many years and 
indicated that some of their policies might create terror 
around the world. We even accused them, insofar as non-
proliferation is involved, of aiding and abetting this. Now it 
has come home to roost in Moscow, and the reaction of the 
Russians to this is obviously very adverse, really 
extraordinary.
    But it seems to me that Ms. Bonner and Mr. Goble are saying 
that the military in Russia and perhaps even the Prime 
Minister, Mr. Putin, have found this situation to be to their 
advantage, that they have extended the authority of the 
military, suspended some civil liberties for people in Russia, 
and have used the Chechnya situation in this way.
    It has all the ramifications you pointed out, Mr. 
Secretary, with regard to the neighboring states and the 
general instability in the Caucasus area. But more importantly, 
this is clearly a setback with regard to democracy in Russia 
and the hopes that all of us have of a normal country there, a 
normal relationship.
    Now, what Mr. Goble says, and he references Ms. Bonner's 
testimony, is that our failure to protest this may have 
suggested that, not that we are encouraging it, but that we 
felt President Yeltsin might take hold and push back. And he 
has not done that. As a matter of fact, from polls that we all 
read in the papers, Prime Minister Putin is gaining ground the 
longer this goes on, from a very low, single digit approval to 
something more substantial, maybe more so than any other 
political figure now in Russia, with the Presidential election 
proceeding and the Duma election next month.
    Should the United States--the administration, the Congress, 
all of us--weigh in in ways that indicate stronger disapproval, 
because of our fears about the evolution toward democracy and, 
given these elections, which we are deeply interested? Can you 
answer in advance what we are about to hear on the next panel, 
which are really substantial charges that we are not doing 
enough in terms of our protest?
    Ambassador Sestanovich. Senator, let me answer in two ways. 
I have to take issue with the words ``our failure to protest'' 
what has happened. We have really spoken up in the clearest 
possible way and I think my statement today bears that out. We 
consider that there are substantial issues involved here, that 
this is not an affair that Russia can treat as simply an 
internal matter, but that it has to respond to the 
international community's concerns about its international 
obligations and issues of fundamental humanitarian principles, 
among others.
    Senator Smith and I were talking earlier about the need to 
develop a broader and louder consensus on this issue. I think 
it is important that the Russian Government hear this as well 
from our European allies, and on that basis we have been 
consulting closely with the European Union, the OSCE, and 
others.
    It is partly as a consequence of those consultations and 
the consultations of those organizations with the Russians that 
we have seen some movement on the Russian side, some 
responsiveness to our concerns. It was as a result of this, for 
example, that the Finish Foreign Minister--the Finns have the 
EU presidency now--traveled to the region, produced a report 
that attracted a lot of attention. It is on the basis of the 
kinds of concerns and protests that we have been lodging that 
we have seen some movement to open the border now so that 
people fleeing this conflict can actually escape the violence 
and put themselves out of harm's way.
    So I think we have been speaking up on this and have seen 
signs that the Russian Government knows it has to listen to 
this kind of storm of protest internationally.
    Let me add a second point to what you have said about 
democracy. I am not comfortable with the idea of letting the 
political leadership in Russia off the hook by talking of an 
assertion of military authority. We do not have any good reason 
to think that, beyond tactical decisions, the Russian army is 
doing anything other than carrying out a political mandate that 
it has from the elected leadership of Russia. That is a source 
of concern.
    Senator Smith asked the question about civilian oversight 
of the military and said we should be alarmed if it is not 
there. Also I think he suggested that we should be appalled if 
it is there. I have no reason to doubt that there is civilian 
control of this policy. That is a reason for us to speak even 
more loudly, as you suggested.
    Senator Wellstone. Just for 1 second, I would say to both 
my colleagues, I know that I wonder whether we might join 
efforts. I have a floor speech and a letter that I was writing. 
I wonder whether we could not put something together where we 
in the next couple of days could have as clear a statement as 
possible coming from the Senate. I think we ought to work on 
that together and do so.
    I would be pleased if the chairman takes the lead. It does 
not matter to me, but I would certainly like to be a part of 
that effort. Let us make sure that happens.
    Ambassador Sestanovich. Can I add one comment to that? I 
think this is the kind of issue that cries out for real 
contacts between parliamentarians.
    Senator Smith. Absolutely.
    Senator Lugar. Thank you.
    Senator Smith. We thank you, Mr. Secretary, for coming.
    We are honored now to call our second panel: Dr. Elena 
Bonner, chairman of the Andrei Sakharov Foundation; and Mr. 
Paul Goble, the Director of Communications, Radio Free Europe/
Radio Liberty.
    Ambassador Sestanovich. Senator, let me say it is always an 
honor to be Elena Bonner's warmup act.
    Senator Smith. Thank you.
    Senator Wellstone. Thank you. Thank you, Mr. Ambassador.
    Senator Smith. In the interest of accommodating time and 
translation, I think what we will do is hear from Dr. Bonner 
and then question her. Would that be acceptable to you, Senator 
Wellstone?
    Senator Wellstone. Mr. Chairman, I want Dr. Bonner to know 
that I may not be able to stay for all of her presentation, and 
it is not out of disrespect. I have such great respect for her. 
My father was from Russia, fled persecution from Russia, and I 
so admire your work.
    Senator Smith. Dr. Bonner.

     STATEMENT OF ELENA BONNER, CHAIRMAN, ANDREI SAKHAROV 
                   FOUNDATION, BROOKLINE, MA

    Dr. Bonner [speaks through interpreter]. Good morning. At 
the beginning of my statement I would like to say briefly that 
I have just received a message from the President of Chechnya 
Maskhadov. The Chechen President Maskhadov asks me to make it 
known to the members of the Senate Foreign Relations Committee 
that the Chechen government, first of all, condemns all 
terrorist activity and does not support any extremist groups; 
and second, emphasizes the need for a negotiated solution.
    To save time, I am asking that my prepared statement be 
just read in English, and afterwards I will be answering 
questions.
    Senator Smith. That will be fine.
    [Interpreter reads the prepared statement of Dr. Bonner 
which follows:]
    Interpreter. The main cause of the second Chechen war must 
be sought in particular features of the current Russia 
political scene. The first war was needed in order to elect 
President Yeltsin. This war is needed to raise the standing in 
the polls of the current Prime Minister, Vladimir Putin, whom 
President Yeltsin has publicly endorsed as his chosen 
successor.
    For the Russian army the war is attractive because it gives 
the generals an opportunity to take revenge for their defeats 
in the Afghan war and in the first Chechen war, 1994-96. They 
believe that perestroika and Gorbachev prevented their victory 
in Afghanistan and that in Chechnya Alexander Lebed, Russia's 
free press and public opinion were to blame.
    For the military-industrial complex, in reduced 
circumstances since the collapse of the Soviet Union, the war 
means money and new orders.
    For the Presidential administration, for government 
ministers, and for Duma politicians, the war is needed to 
resuscitate patriotic slogans and divert the public attention 
from corruption and financial scandals to the enemy, in this 
situation the Chechens. The regime has not found any way other 
than war to rally the public, of whom one-third or 51 million 
persons live below the poverty level.
    The frequent replacement of prime ministers this past 
year--it is noteworthy that the last three have all had KGB 
connections--has possibly been the result of a conscious or 
subconscious search for someone capable of deciding for war. 
Primakov was too cautious. Stepashin's dismissal most likely 
was the result of his willingness to talk with Chechnya's 
President Aslan Maskhadov and even to arrange a meeting of 
Maskhadov with Yeltsin.
    Putin took Stepashin's place most likely because he 
recognized the Kremlin's wish for war, not peace. It is worth 
recalling that last August in one of his first interviews as 
prime minister he answered the question about his attitude 
toward his appointment by stating: ``I am a soldier.''
    Later Putin, not the President, was the first to declare 
that the Khasavyurt agreement and the peace treaty signed by 
Yeltsin and Maskhadov were meaningless scraps of paper. Putin 
falsely claimed that Maskhadov is not the legitimate President, 
so that there is no sense entering into negotiations with him.
    Russian public opinion has accepted that the blowing up of 
apartment houses in Russia and the hundreds of deaths that 
resulted, even though a Chechen connection to these explosions 
remains unproven, and the raid into Dagestan justify the anti-
Chechen campaign. The explosions have allowed our Russian 
politicians to call this war a fight against international 
terrorism and Russian officers to announce to the whole world 
that they will prosecute this war to the very end and will not 
let any civilian casualties stop them.
    An unprecedented anti-Chechen campaign has been launched in 
the mass media, especially on TV. Chechens have been banished 
from Russian cities, with Moscow leading the way in violating 
their legally protected rights. Between 100,000 and 130,000 
persons perished during the first Chechen war. The fate of more 
than 1,500 persons who disappeared during purges of the local 
population and from detention camps remains unknown.
    All cities in Chechnya, many of its towns and villages, its 
whole infrastructure, its institutions of education, medicine, 
and culture, and its factories and other enterprises were 
destroyed. After the war, almost the whole urban population of 
Chechnya was left without jobs. Crime increased. Kidnapping for 
ransom became an everyday occurrence.
    Yet, with incredible effort, after the war ended people 
somehow repaired their homes, farmers gathered the harvest, and 
Chechens managed to survive the winter. All this was 
accomplished without financial help from Russia, which, despite 
its own poverty, should in all justice have assisted the 
reconstruction of Chechnya after a peace treaty was signed by 
Maskhadov and Yeltsin.
    Russia could not find any money to ensure peace, but Russia 
can find the money to make war. In the current budget military 
expenditures have been increased by a billion dollars, orders 
to the military-industrial complex have been stepped up, and 
the prime minister has promised all soldiers involved in the 
fighting pay of $1,000 a month. Where will this extra money be 
found, since even without the war, revenues do not cover the 
ordinary budget expenditures?
    One way is by simply printing more rubles. The resulting 
inflation will make the poor still more impoverished. Taxes 
will be raised, which will ruin many small and medium-sized 
businesses. And then there will be Western loans and money from 
the IMF and other international agencies, or at least whatever 
may be left after payment of interest on outstanding loans. The 
second Chechen war, just like the first war, is being 
indirectly financed by the Big Seven and other economically 
advanced countries.
    The effects of the war can also be seen in recently adopted 
decrees and legal matters. The constitutional court has decided 
that students in private colleges and universities can be 
drafted before completing their studies. The President issued a 
decree that draftees can be sent into battle after 6 months of 
training, violating the principle of using only volunteers to 
fight wars.
    Information about the war is reviewed and edited by the 
newly created Russian Information Service and by the military 
censorship. Virtually no Western or independent Russian 
journalists are allowed in the war zone. The work of 
humanitarian and human rights NGO's is obstructed. Access of 
U.N. and NGO observers to the region is restricted.
    When they began their military action, the Russian generals 
stated that their goal was to create a cordon sanitaire along 
the border with Chechnya. But since mid-October and after the 
offensive against Grozny and Gudermes, it has become clear that 
this announcement was made only to appease public opinion.
    The rocket attack on the Grozny market where more than 150 
persons were killed, including 13 babies in a nearby maternity 
hospital, signaled the second, even more savage phase of the 
war. It is typical that in this case, as in all preceding and 
subsequent instances of ruthless bombardment of civilians, 
Russian officials, including Prime Minister Putin, have lied 
and denied that the incidents took place.
    President Maskhadov in his October 29 appeal to Pope John 
Paul II on behalf of Chechnya's civilian population wrote that: 
``3,600 persons, mostly women and children, have been killed 
and more than 5,500 wounded by Russian bombing, shelling, and 
other ordnance.'' That same day a refugee convoy which included 
five clearly marked Red Cross vehicles was attacked by Russian 
planes and, according to eyewitnesses, more than 25 persons 
were killed and more than 70 wounded. Every day the casualties 
increase.
    The number of refugees from Chechnya in neighboring regions 
has passed the 250,000 mark. The majority are in Ingushetia, 
about 190,000 refugees as of November 1. This influx puts an 
impossible strain on the infrastructure of a small republic, 
with a peacetime population of 340,000 people. Nevertheless, 
Ingushetia's President Ruslan Aushev protested when the Russian 
army sealed off the border with Chechnya. Aushev declared that 
Ingushetia is prepared to accept more refugees fleeing from the 
deadly bombing.
    The situation of the refugees is extremely difficult. The 
assertion that no humanitarian catastrophe exists in Ingushetia 
is just one more lie invented by the Russian Government so that 
representatives of international organizations can be denied 
access to the refugees and prevented from witnessing the mass 
violations of human rights taking place.
    There are not enough tents, stoves, cots, blankets, or warm 
clothing, and at night the temperature already drops below 
freezing. There is not enough drinking water and sanitary 
supplies. The lack of doctors and nurses, medicine and surgical 
supplies is critical. There is not sufficient flour for the 
bakeries. Other foodstuffs are in very short supply, including 
milk and infant formula. Every day dozens of people, primarily 
infants and elderly, die from cold, disease, and wounds.
    The aid from the U.N. and other humanitarian organizations 
which has reached the refugees so far is insufficient. 
Moreover, part of the assistance has reportedly fallen into the 
hands of the military. If the flow of assistance is not 
promptly and substantially increased, countless deaths from 
epidemics, malnutrition, and extreme cold weather can be 
expected. A humanitarian catastrophe already exists and only 
major international aid can prevent its farther advance.
    Carpet bombing and shelling of cities, villages, and 
refugee convoys attempting to escape the war zone constitute a 
grave violation of the Geneva Convention Relative to the 
Protection of Civilian Persons in Time of War and the 
additional protocols, and demonstrate the Russian Government's 
complete disregard for these extremely important international 
agreements.
    The means used to conduct this war demonstrate plainly that 
it is not a fight against terrorists. The Russian generals are 
trying to annihilate a large part of the Chechen nation and 
drive out those who survive from their native land. Their aim 
is to keep Chechnya as part of the Russian Federation, but 
without the Chechens. This is genocide. This is not just 
another routine violation of human rights. This is a crime 
against humanity, and this can no longer be exclusively the 
internal affair of Russia no matter how often President Yeltsin 
and Prime Minister Putin try to assert this point of view.
    Senator Smith. Thank you very much.
    We are going to turn now to Mr. Goble. But Dr. Bonner, as 
he gives his testimony, I wonder if you could be prepared to 
answer a question: What specifically should the United States 
do to bring this war to a close?
    Mr. Goble.

STATEMENT OF PAUL GOBLE, DIRECTOR OF COMMUNICATIONS, RADIO FREE 
             EUROPE / RADIO LIBERTY, WASHINGTON, DC

    Mr. Goble. Thank you, Mr. Chairman, for holding this 
hearing and for inviting me to appear after Elena Bonner. The 
two of us appeared before another congressional committee 4\1/
2\ years ago when Russia was earlier attacking the Chechen 
people. The situation now is worse and I am very grateful that 
you are holding these hearings.
    Moscow's latest military campaign against Chechnya has not 
only killed hundreds, wounded thousands, and driven almost a 
quarter of a million people from their homes; it has created a 
humanitarian and political crisis beyond the capacity of the 
current Russian Government to cope. Moreover and still more 
disturbingly, the Russian authorities' continuing police 
actions and media attacks against ethnic Chechens and other 
North Caucasians living across the Russian Federation not only 
has led to the physical expulsion of many of these people from 
Russian cities, it has also--and this is important for us--
broken the taboo against government-sponsored attacks on 
individuals in Russia because of their ethnic ties, thus 
opening the door to attacks against other minority groups in 
that country.
    Neither the Russian military campaign against Chechnya nor 
police actions against Chechens as a group, however, has broken 
the will of the Chechen people or lessened their resolve to 
live in an independent country of their own. If anything, the 
current Russian assaults against civilians in Chechnya itself 
and the portrayal of the Chechen nation as a whole as uniquely 
criminal or terrorist has only redoubled the resolve of the 
Chechens to escape from Russian domination. Consequently, the 
Chechens are certain to redouble their centuries-old struggle 
for freedom, whatever victories Moscow and its supporters there 
or elsewhere may report or claim.
    But this prospect of continuing Chechen resistance is 
hardly the only feature of the future that Moscow's own 
policies have made more likely. The Russian Government's recent 
actions have simultaneously undermined the likelihood that 
Russia will move in a democratic direction any time soon, 
threatened the prospects for stability between Russia and her 
neighbors, and reduced the chances for the development of the 
kind of cooperative relationship between Russia and ourselves 
that we had hoped so much for. That spreading collateral damage 
is to be my subject.
    Moscow's actions against Chechnya and the Chechens have 
seriously reduced the chances that the Russian Federation will 
continue to move in a democratic direction. First of all, Prime 
Minister Vladimir Putin's decision to use military force rather 
than political means to deal with Chechnya and the Chechens 
and, even more, the popularity he has so obviously won by doing 
so combine to make it more, rather than less, likely that he 
and his successors will continue to employ that tactic, thus 
subverting the possibility of democracy.
    If the Russian authorities had used police power to track 
down those individuals they suspected of engaging in terrorist 
actions, no one would have objected. And if Moscow had argued 
that it wanted to reassert control over Chechnya as a 
territory, it is unfortunately the case that many in the West 
might have said that was a reasonable, if not especially 
attractive, step.
    But Moscow's use of force was not only disproportionate to 
either of these goals, but involved the demonization of an 
entire nation in ways that will make it more difficult, if not 
impossible, for the Russian authorities to establish a 
legitimate and democratic form of rule over their country. This 
demonization of an ethnic community and again the enormous 
popularity that that demonization now enjoys among Russians 
forms a second threat to democracy in Russia.
    Although the Chechens number only a million and are thus a 
tiny fraction of Russia's population, the percentage of Russian 
Federation citizens who are Muslims or who are at least not 
ethnically Russian is large and growing. Demonizing those 
groups increases splits in that society that democracy will 
find it very difficult to take root in.
    To give but one example, the government of the 
predominantly Turkic and Muslim Republic of Tatarstan has 
denounced what Moscow is doing in Chechnya and ordered that no 
Tatars should serve in Russian forces there.
    But it is the destruction of the taboo against demonizing 
and attacking an ethnic community as a whole that is the most 
serious problem. In the past, Russian Governments, in Soviet 
times as well, exploited popular xenophobic sentiments to win 
support for themselves. The anti-Chechen campaign and 
especially the Putin government's open support of the actions 
of Moscow Mayor Luzhkov and other regional leaders interested 
in expelling ``persons of Caucasian nationality'' raise the 
specter that that will continue.
    Despite what was suggested earlier, the efforts to expel 
persons of North Caucasian and Chechen origin from Russian 
cities did not begin 2 months ago. It began on October 5, 1993, 
with the decree by Mayor Luzhkov that was backed up by 
President Yeltsin.
    Worse, we are seeing the people who are involved in attacks 
on Chechens now thinking about attacking other groups. In 
Krasnodar there are suggestions that attacks on Chechens should 
be followed by attacks on Jews, and in Nizhny Novgorod, one of 
the more reformist centers of Russia, there are suggestions 
that the attacks on Chechens should be followed by attacks on 
Kurds.
    Third, under the cover of the bombing of Grozny and the 
attacks on Chechens in Russian cities, Moscow has moved to 
reinstitute the kind of controls over the media that remind one 
of the late Soviet period. That is one of the reasons that 
Russians now appear to support their government, because the 
Russian people are not given access to much information. There 
has been an extremely tough media policy instituted, 
controlling news, hacking Internet sites, threatening 
journalists, and so forth.
    That has offended some Russians and, as one of the leaders 
of the Russian Soldiers Mothers Committee put it 2 days ago: 
``All official statements about Chechnya are lies.'' But 
unfortunately, not all Russians have the access to the kind of 
information which allows them to make that judgment and that is 
a big problem.
    I am very proud that the organization I work for, Radio 
Free Europe/Radio Liberty, has had reporters on the ground to 
cover what is going on in the North Caucasus and elsewhere and 
to give the Russian people a more accurate picture of what is 
going on. It is a measure of the times and something I 
personally think we can take pride in that Russian media 
outlets now are attacking RFE-RL and its Russian language 
service in precisely the ways those services were attacked in 
Soviet times. I believe many Russians will come to see what is 
going on as very frightening.
    The second major threat of Russia's behavior is that 
Russia's campaigns against Chechnya and the Chechens are having 
an impact far beyond the borders of the Russian Federation, 
because Moscow is now in violation of internationally agreed to 
CFE limitations. It is nice that they admitted it, but they are 
still in violation even if they have.
    The Russian authorities have put enormous pressure on 
Georgia and its neighbors to yield some of their equipment 
quotas to Moscow so that Moscow will not be held accountable 
for breaking the limits. To date, Tbilisi and other capitals 
have resisted doing that, but, as Moscow has demonstrated in 
the past, it has a variety of means at its disposal to put 
pressure on the leaders of these very weak countries.
    Moreover, Russia's neighbors cannot help but be nervous 
that Moscow's latest turn to the use of violence presages a 
greater willingness to employ force implicitly or directly 
against them. That is a concern across this entire region and 
can be found by reading the press, if not talking to the 
foreign ministers of these countries.
    Such feelings are especially likely to become strong in 
those countries which are either Turkic or Muslim and who may 
see Russian policy about the Chechens as ultimately applying to 
them. That will make at least some of these states think about 
distancing themselves from Moscow still further, possibly 
leading to a new crisis if Russian authorities try to prevent 
them from doing that.
    But it is for us perhaps the most concerning that this 
Russian retreat from democracy and the likelihood of greater 
instability in the post-Soviet region as a whole has an impact, 
a serious impact, on the United States and its interests in 
developing a more cooperative relationship with the Russian 
Federation. Because hopes for such a relationship were so high, 
many counseled against criticizing Moscow either for its 
attacks on Chechnya in 1994-96 or for the October 1993 
introduction by Mayor Luzhkov of his order to expel Chechens 
from the Russian capital.
    During the first Chechen war, if I may use the 
periodization Elena Bonner has employed, most Western leaders 
were either silent or supportive, in the hopes that President 
Boris Yeltsin would soon turn again toward democracy. But the 
events of recent months suggest that that hope was misplaced. 
Indeed, some have suggested that the reason Moscow has acted in 
the way it has against Chechnya and against the Chechens is 
precisely because in the past the West appeared to be so 
willing not to object.
    It is difficult to know for sure that that is the correct 
analysis. But the absence of vigorous criticism the last time 
certainly encouraged some in Moscow to think that they could do 
something like this again and at little or no cost. 
Consequently, we can only welcome the much tougher statements 
that have recently emanated from Washington, from the EU, from 
the United Nations, from the Holy Father, from the OSCE, and 
from particular governments and human rights organizations.
    Putting ourselves on record against evil is always the 
right thing to do. Putting ourselves on record against an evil 
that will ultimately threaten our own society and its interests 
is an imperative. Unfortunately, Putin and other Russian 
leaders have made it clear, at least in public, that they think 
they can safely ignore such criticism and may even benefit at 
home and abroad from being seen to ignore it.
    That unfortunate attitude raises the stakes. Western 
governments in general and the United States in particular 
naturally and justifiably have been reluctant to impose real 
penalties on Russia by restricting aid, loans, and other 
assistance, lest such a cutback lead Moscow to turn away from 
reform elsewhere. But Moscow's recent actions and especially 
its recent reactions to Western and American criticism, 
something we have not talked about before, suggest that the 
United States and other Western governments will soon have to 
revisit this issue, possibly reducing or at least making 
contingent any future assistance to Russia on better behavior 
toward Russian citizens and the principles of democracy. 
Failure to do that will not only further lower our moral 
influence in Russia and that region, but it could very well 
encourage Moscow to behave even worse in the future as the 
absence of criticism in 1994 and 1995 and 1996 did now.
    Should that happen, and I very much hope that hearings like 
that will make it impossible, those who now argue against any 
tough penalties would eventually face, along with the rest of 
us, a Russia with which most Western countries would find it 
difficult if not impossible to cooperate at all.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Goble follows:]

                Prepared Statement of Paul A. Goble \1\
---------------------------------------------------------------------------

    \1\ The views expressed here are Mr. Goble's own.
---------------------------------------------------------------------------
  collateral damage: the spreading consequences of moscow's campaign 
                   against chechnya and the chechens
    Moscow's latest military campaign against Chechnya has not only 
killed hundreds, wounded thousands and driven almost a quarter of a 
million people from their homes: it has created a humanitarian and 
political crisis beyond the capacity of the Russian government to cope. 
Moreover, the Russian authorities' continuing police actions and media 
attacks against ethnic Chechens and other North Caucasians now living 
in the Russian Federation not only has led to the physical expulsion of 
many of these people from Russian cities: it has also broken the taboo 
against government-sponsored attacks on individuals because of their 
ethnic ties, thus opening the door to attacks against other minority 
groups in that country.
    Neither the Russian military campaign against Chechnya nor police 
actions against Chechens as a group, however, has broken the will of 
the Chechen people or lessened their resolve to live in an independent 
Chechnya. If anything, the current Russian assaults against civilians 
in Chechnya itself and the portrayal of the Chechen nation as a whole 
as a uniquely criminal or terrorist community has only redoubled the 
resolve of the Chechens. And consequently, the Chechens are certain to 
continue their now centuries' old struggle for freedom--whatever 
victories Moscow and its supporters may report or claim.
    But this prospect of continuing Chechen resistance is hardly the 
only feature of the future that Moscow's policies have made more 
likely. The Russian government's recent actions against Chechnya and 
the Chechens have simultaneously undermined the likelihood that Russia 
will move in a democratic direction, threatened the prospects for 
stability between Russia and her neighbors, and reduced the chances for 
the development of the kind of cooperative relationship between Russia 
and the West that so many people on both sides had hoped for. This 
spreading collateral damage is my subject here.
                         undermining democracy
    Moscow's actions against Chechnya and the Chechens have seriously 
reduced the chances that the Russian Federation will continue to move 
in a democratic direction. Indeed, as several observers have put it, 
Russia's advance on Grozny has been accompanied by Russia's retreat 
from democracy. There are at least three reasons for this unpleasant 
conclusion.
    First of all, Prime Minister Vladimir Putin's decision to use 
military force rather than political means to deal with Chechnya and 
the Chechens and even more the popularity he has won domestically by 
doing so combine to make it more likely rather than less that he or his 
successors will continue to employ this tactic. By its very nature, 
such use of force and even more its popularity will make it more 
difficult for Russia to move toward democracy and its precondition, the 
rule of law.
    If the Russian authorities had used police power to track down 
those individuals they suspected of engaging in terrorist actions, no 
one would have objected. And if Moscow had argued that it wanted to 
reassert control over Chechnya as a territory, many in the West might 
have said that was a reasonable if not especially attractive step for 
the central government there to take. But Moscow's use of force was not 
only disproportionate to either of these goals but involved the 
demonization of the Chechens and other minorities in ways that will 
make it far more difficult for the Russian authorities to establish a 
legitimate and democratic form of rule over much of their country.
    This demonization of a particular ethnic community and again the 
enormous popularity of it among many Russians to judge from the polls 
together form the second threat to democracy. Although the Chechens 
number only a million and are thus a tiny fraction of Russia's 
population, the percentage of Russian Federation citizens who are 
Muslims or who are at least not ethnically Russian is large and 
growing. Demonizing one of these groups with the apparent backing of 
the dominant natinality raises the possibility that others will be 
demonized, a prospect that has already offended some non-Russians and 
may offend still more. To give but one example, the government of the 
predominantly Turkic and Muslim Republic of Tatarstan has denounced 
what Moscow is doing in Chechnya and ordered that no Tatars should 
serve in the Russian army there.
    But it is the destruction of the taboo against demonizing and 
attacking an ethnic community as a whole that is the most serious 
aspect of this challenge to the future of democratic governance in 
Russia. In the past, Russian governments have exploited popular 
xenophobic sentiments to win support for themselves by blaming so-
called ``outsiders'' for their problems. The anti-Chechen campaign, and 
especially the Putin government's open support of the actions of Moscow 
Mayor Yuri Luzhkov and other regional leaders interested in expelling 
``persons of Caucasian nationality,'' raise the spectre that some 
Russian leader of political group might seek power by turning to the 
same base prejudices. That is all the more likely because there is some 
evidence that many of those in Russia now attacking the Chechens and 
other North Caucasians are prepared to attack Jews--as in Krasnodar--or 
Kurds--as in Nizhny Novgorod.
    And third, under the cover of the bombing of Grozny and the attacks 
on Chechens in Russian cities, the Russian government has moved to 
reinstitute the kind of controls over the media that are reminiscent of 
the late Soviet period and thus avoid the anti-regime sentiments 
generated by Russian media coverage of Moscow's last intervention in 
Chechnya in 1994-96. Earlier this year, Moscow established a new 
ministry to manage the media, and its leader has sought to keep the 
press from playing what he calls ``an aggressive role'' against the 
interests of the state. The Russian army has instituted extremely tight 
battlefield censorship and restricted the access of reporters to 
Chechnya. And the Russian authorities have struck out at Chechen-
related Internet sites, threatened journalists who want to get the 
truth out, and otherwise sought to restrict the flow of information.
    This has offended some Russians. As one of the leaders of the 
Russian Soldiers' Mothers Committee put it this week, ``all official 
statements about Chechnya are lies.'' But unfortunately, not all 
Russians have the access to the kind of information which allows them 
to make that judgment. Indeed, such actions by the Russian government 
have exacerbated the collapse of the Russian regional media, thus 
making Moscow's official voice often the only one many people here. I 
am proud that Radio Free Europe/Radio Liberty has had reporters on the 
ground to cover what is going on in the North Caucasus and elsewhere 
and to give the Russian people a more accurate picture than their press 
and electronic media now are supplying. It is a measure of the times 
and something I believe we can take pride in that Russian media outlets 
are now attacking RFE/RL and its Russian language service in ways that 
also recall the late Soviet period.
    Fortunately, many Russians are increasingly aware of this danger as 
well and beginning to protest what their government is doing. But as of 
now, they are still few in number and isolated one from another. As a 
result, the Putin government clearly believes that it can not only get 
away with the management of the news but that it will be the primary 
beneficiary of doing so. None of this bodes well for the future of 
democracy in Russia.
                     threatening regional stability
    The impact of Russia's campaigns against Chechnya and the Chechens 
is not limited to the borders of the Russian Federation, whatever the 
Russian government may claim. Because Moscow is now in violation of the 
internationally agreed to CFE limitations, the Russian authorities have 
put enormous pressure on Georgia and its neighbors to yield some of 
their equipment quotas to Moscow so that the Russians will not be held 
accountable for breaking the limits. To date, Thilisi and the others 
have been unwilling to do so. But as Moscow has demonstrated in the 
past, it has a variety of means--economic, political, military and 
others as well--at its disposal to pressure the leaders of the 
neighboring countries.
    Moreover, Russia's neighbors cannot help but be nervous that 
Moscow's latest turn to the use of violence presages a greater 
willingness to employ force implicitly or even directly against them. 
Most of the post-Soviet states in the CIS have Russian military forces 
on their territories. Most of these regimes are relatively weak and do 
not yet have the domestic stability or outside support to resist 
successfully any Russian pressure of this kind. And most have seen 
dramatic events in at least a few of these countries that leaders like 
President Eduard Shevardnadze have laid at the feet of Russian special 
forces. At a time when such forces appear to be on the march within 
Russia, their concerns about the use of these agencies abroad will only 
grow.
    Even if these perceptions are incorrect in whole or in part, their 
existence will have the effect of raising the level of tensions among 
these countries, thereby making political resolution of differences 
more difficult and increasing the temptation of the stronger party to 
employ threats to get its way.
    Such feelings are likely to become especially strong in those 
countries which are either Turkic or Muslim and who may see Russian 
policy about the Chechens as ultimately applying to them. (At the same 
time, Moscow's approach may give aid and comfort to more extremist 
groups within the ethnic Russian communities within these countries out 
of an expectation that they might enlist Moscow to support them against 
the local governments.) That will make at least some of these states 
think about distancing themselves from Moscow still further, possibly 
leading to a new crisis if the Russian authorities try to prevent that 
from happening. While Russia's neighbors have been cautious in public 
about what Moscow is doing lest they further anger Moscow, most are 
quite concerned about the spread in one form or another of Putin's 
current approach.
                 undercutting u.s.-russian cooperation
    This Russian retreat from democracy and the likelihood of greater 
instability in the post-Soviet region obviously has an impact on the 
United States and its interest in developing a more cooperative 
relationship with the Russian Federation.
    Because hopes for such a new relationship were so high, many 
counselled against criticizing Moscow either for its attacks on 
Chechnya in 1994-96 or for the October 1993 introduction by Mayor 
Luzhkov of his Chechen expulsion policy. During the first Chechen war--
if I may use the periodization Yelena Bonner has employed here--most 
Western leaders were either silent or even supportive, in the hopes 
that President Boris Yeltsin would soon turn again toward democracy.
    But the events of the last two months suggest that hope was 
misplaced, and indeed some have suggested that the reason Moscow has 
acted in the way that it has against Chechnya and the Chechens is 
precisely because the West appeared to be so willing not to object. It 
is difficult to know for sure that that is a correct analysis, but the 
absence of vigorous criticism last time certainly encouraged some in 
Moscow to think that they could do something like this again and at no 
cost.
    Consequently, we can only welcome the much tougher statements that 
have emanated recently from Washington, from the European Union, from 
the United Nations, from the Organization for Security and Cooperation 
in Europe, and from particular governments and human rights 
organizations. Putting ourselves on record against evil is always the 
right thing to do; putting ourselves on record against an evil that 
will ultimately threaten our own society and its interests is an 
imperative.
    Unfortunately, Putin and other Russian leaders have made it clear 
that they think they can safely ignore and may even benefit at home and 
abroad from being seen to ignore such Western criticism. That 
unfortunate attitude raises the stakes. Western governments in general 
and the United States in particular naturally and justifiably have been 
reluctant to impose real penalties by restricting aid, loans and other 
assistance to the Russian Federation lest any cutback lead Moscow to 
turn away from reforms in other areas.
    But Moscow's actions and especially its recent reactions to Western 
and American criticism suggest that the U.S. and other Western 
governments will have to revisit this issue soon, possibly reducing or 
at least making contingent any future assistance. Failure to do that 
will not only further lower our moral influence in Russia and other 
countries but it could encourage Moscow to behave even worse in the 
future. Should that happen, those who now argue against any such 
penalties would eventually face--along with the rest of us--a Russia 
with which most Western countries would find it difficult to cooperate 
at all.

    Senator Smith. Thank you very much, Mr. Goble. It was an 
excellent statement. You have already laid out many of the 
answers to the question I have posed to Dr. Bonner.
    Dr. Bonner, what can the United States do to help bring 
this conflict to an end?
    Dr. Bonner [speaks through interpreter]. I will start a 
little bit from afar by saying that, first of all, you need to 
evaluate the situation and have a correct picture of both the 
situation and the state that is Russia that you are dealing 
with. I would say that the last 10 years can be characterized 
in terms of the United States position by saying that the 
United States is taking the desired state of affairs as real.
    We did not really move that far toward democratization in 
the years that Russia existed as a separate entity from the 
Soviet Union and since 1993 we are steadily moving in the 
direction opposite to democratization. Today, though it is very 
difficult and sad for me to state so because I am talking about 
my country and my people, both of whom I love, but I state it: 
Today we have not a democratic state, but a criminal-military 
state.
    Now more specifically on the question of what to do about 
this current Russia-Chechen war. First of all, I think that the 
diplomatic pressure put on Russia can be more forceful and more 
specific. I believe that no loans, no aid of any kind, either 
from the United States directly or from international, any 
international organization, can be given to a country that is 
conducting such a war.
    Senator Smith. How about cooperating on restructuring of 
past loans?
    Dr. Bonner. I am not a financial specialist, so it is 
difficult for me to comment on the specifics of how 
restructuring is different from other things. But I have heard 
now for example that South Korea has forfeited some amounts of 
credits that have been given in the past to Russia. I do not 
understand why that should be done.
    Right now there are negotiations being conducted about 
humanitarian assistance from the United States in terms of 
delivery of foodstuffs. That kind of aid, of course, is 
different in the sense that it is not delivered as money, as 
finances.
    But at the same time I should say that what was done in 
previous years with this kind of assistance when it was agreed 
that some funds would go toward the pension fund in Russia, at 
least 50 percent of that was machinations and lies. I do not 
want to take up too much time of the committee, but I could 
have given you examples how some of the food assistance given 
to Russia in some regions was being sold and the resulting 
money put in banks controlled by children of members of the 
government.
    I have personally discussed several times with USAID head 
office here in Washington my opinion that if any aid is 
delivered to Russia as a whole that includes funds which are 
supposed to be distributed to the regions, the proportional 
part of that aid which is supposed to go to Chechnya should be 
delivered directly to Chechnya, because otherwise it never 
reaches its destination. I was every time told that such policy 
is impossible to implement because it will offend Russia.
    Also I should note that when a reduction--talking still 
about the policies of providing financial and other assistance 
to Russia, when reductions in these kinds of programs were 
implemented in the past, the specific example last year USAID 
have gone through a reduction of programs oriented toward 
Russia, have decided that the first step that they are going to 
take will be canceling grant support for nongovernmental 
organizations in Russia. That is precisely those organizations 
that are concerned with human rights and humanitarian work in 
Russia.
    Now, specifically in terms of the kind of aid that the 
United States should be giving right now, I think that it 
should be in the form of financial assistance for international 
organizations which are currently working in Chechnya or that 
can get accredited and start the field work.
    It is also important that the humanitarian aid, financial 
assistance for the purpose of humanitarian aid, should be 
delivered not through the Russian Ministry for Emergency 
Situations and not through the Russian Federation Migration 
Service which is supposedly taking care of refugees, but only 
through the political leaders who have a reputation in the 
region, in the North Caucasus region, for their honesty and 
financial integrity.
    I believe that such leaders in that region are Ingushetia's 
President Aushev and Chechnya's President Maskhadov.
    Senator Smith. I hate to bring this hearing to a close 
because you have been so helpful and so valuable, but we are 
under direction of the majority leader to shut this hearing 
down and go to the Senate floor for an important Senate 
ceremony.
    You have both been so helpful. Mr. Goble, thank you; 
excellent testimony. I am going to leave this record open 
because there may be yet more questions and we would like to 
get a few more answers from you. So with that, the record will 
remain open.
    With that, this hearing is adjourned.
    [Whereupon, at 11:32 a.m., the committee was adjourned.]

   Responses of Hon. Stephen R. Sestanovich to Additional Questions 
                        Submitted for the Record

    Question. When NATO peacekeepers were being deployed in Kosovo, 
Russian forces rushed in to occupy the Pristina airport--at the very 
same time Russian civilian leaders were assuring NATO they would not do 
so. Is the current military campaign in Chechnya another example of a 
lack of solid civilian control over Russian military forces?
    Answer. Russia's civilian leaders have made their overall 
objectives in the North Caucasus clear. They have said repeatedly that 
they intend to destroy terrorist formations inside Chechnya and restore 
Moscow's central authority to the region.
    We disagree strongly with the tactics Russia's military is using in 
the North Caucasus to achieve this objective, which have led to 
wholesale death and suffering among innocent civilian populations. We 
do not doubt, however, that Russia's military is carrying out this 
policy with the support of Russia's civilian leaders.

    Question. How much of the arms going to Chechnya to defend itself 
is coming from Muslim States? Which States?
    Answer. It is difficult to estimate precise numbers of fighters, 
flows of cash, or the influx of weapons, supplies and equipment flowing 
into the North Caucasus from outside or the countries where they 
originate. Under current circumstances--particularly the enhanced 
border security and the tightening Russian military control in the 
area--it seems unlikely that large numbers of fighters or large 
quantities of weapons and funds are still flowing into the Chechen 
rebels. It is not impossible that small amounts of weaponry could be 
smuggled into Chechnya, even into areas under Russian control, but we 
have no evidence to support this.
    Nearly all of the weapons used by insurgents in Chechnya are 
Russian-made.

    Question. How much assistance is coming from Islamic fundamentalist 
states and groups outside of Russia, and even outside the New 
Independent States (NIS)?
    Answer. It is difficult to estimate precise numbers of fighters, 
flows of cash, or the influx of weapons, supplies and equipment flowing 
into the North Caucasus from outside. Russian government statements 
linking Osama Bin Ladin's organization to Chechen fighters Basayev and 
Al-Khattab are plausible. We are aware of continuing cooperation 
between Bin Ladin's Al-Qaida organization and Chechen rebels, including 
Ibn Al-Khattab. It is likely that some of the non-Chechen rebel 
fighters coming from outside Russia have received training, funding, 
and other logistical support from terrorist organizations.

    Question. From the perspective of the Administration, how can we 
tell when the United States should discourage Russian military excesses 
combating Islamic forces in the Caucasus, and when--if ever--should the 
United States consider collaborating with Russia in fighting Islamic 
sources of terrorism?
    Answer. We are actively cooperating with Russian authorities in the 
fight against terrorism. As the President said at the OSCE Summit in 
Istanbul, we want Russia to overcome the scourge of terrorism. We 
condemned the deadly apartment bombings in Russian cities last August 
and September in harshest terms. Acts of terror, in all their forms, 
have no place in a democratic society.
    But the fight against terrorism can not be used to justify the 
intensive artillery and aerial attacks which have caused needless 
civilian deaths and injuries. We have been sharply critical of the 
Russian government policy in the North Caucasus, and have consistently 
called for all parties in the region to refrain from the use of force 
against civilian populations.

    Question. Tens of thousands of Chechens have been forced to flee 
their homes due to the Russian military campaign there. What is the 
status of these refugees' health and welfare? Is the Russian government 
taking any action to care for these refugees?
    Answer. We are very concerned about the welfare of more than 
200,000 people displaced by fighting in the North Caucasus. UN High 
Commissioner for Refugees Sadako Ogata visited the region in late 
November and described the situation as very difficult, but ``not 
catastrophic.''
    Russia bears the primary responsibility for dealing with 
humanitarian problems in the North Caucasus. It should allow full 
freedom of movement for displaced persons and provide for their well 
being. The international community is doing its part. Russia needs to 
work constructively with international relief organizations and provide 
adequate security and access for their courageous efforts.
    The U.S. has responded urgently and positively to appeals for funds 
to aid displaced persons in Russia's North Caucasus region.
    On November 11, the White House announced that the U.S. would 
contribute $3 million in response to an emergency appeal from the 
International Committee for the Red Cross.
    On November 23, the UN issued an interagency appeal for funds to 
assist displaced persons in the region; we are reviewing this appeal 
and expect to respond very soon.
    In addition to our response to these appeals, the U.S. has given 
nearly $6 million in cash and in-kind assistance to the UNHCR and ICRC.
    We continue to believe that international organizations like the UN 
High Commissioner for Refugees and the International Committee of the 
Red Cross are best suited to deliver assistance to this region. Both 
are already operating in the area and are increasing their assistance 
to the Internally Displaced Persons. If the ICRC and UN are able to 
distribute the assistance called for in their appeals, they will 
deliver nearly 29 million dollars worth of aid in the next three 
months.

    Questions. You mentioned the threat posed by the conflict in 
Chechnya to the stability of Georgia, Azerbaijan and Armenia.
    1. What, if any, commitments has the Administration made to help 
safeguard the sovereignty of Georgia, Azerbaijan and Armenia?
    Answer. Securing the stability, independence and territorial 
integrity of Georgia, Azerbaijan and Armenia is a key goal of U.S. 
policy in the Caucasus region. We are committed to providing support 
where we can to help these countries and the other new independent 
states of the Former Soviet Union fully realize their sovereignty and 
independence. A variety of programs support this goal. A good 
illustration of this commitment is the Georgia Border Security and Law 
Enforcement Assistance Program. This multi-agency program is designed 
to help the Georgian Border Guards and Customs Service gain and 
maintain control over Georgia's borders--a prerequisite for Georgia's 
development as a stable and sovereign state.

    2. Have these countries sought any specific commitments?
    Answer. In October Georgia submitted a request to the U.S. for 
communications and surveillance equipment to support higher staffing 
levels on Georgian's border with Russia. Georgia also requested 
additional binoculars, night vision devices, and three man-portable 
tactical radar sets. The Department of State and U.S. Customs worked 
with the U.S. Air Force electronic systems command to expedite delivery 
of the equipment.
    Neither Azerbaijan nor Armenia has sought any commitments from the 
U.S. in connection with the North Caucasus conflict.

    3. What specific immediate assistance is the Administration 
prepared to offer Georgia, Azerbaijan and Armenia if the conflict in 
Chechnya reaches a point where it threatens their stability? (Other 
than the long term project to help Georgia build up its borderguard 
capability.)
    Answer. It would not be useful or appropriate to comment about 
hypothetical situations. Suffice it to say that our assistance to and 
support for Georgia, Azerbaijan and Armenia will continue.

                                    
                                   <all>
</pre></body></html>
